No. 19-123

 

 

IN THE

Supreme Court of the Anited States

SHARONELL FULTON, ET AL.,
Petitioners,

v.

CITY OF PHILADELPHIA, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

BRIEF OF AMICI CURIAE SCHOLARS WHO
STUDY THE LGB POPULATION IN SUPPORT
OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,781 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

Colin Casey i

Wilson-Epes Printing Co., Inc.
